No. 98110-8
IN THE
Suflteme @owtt of Me United State*

LINDA AMES
Petitioner
v.
HSBC BANK USA, NATIONAL ASSOCIATION AS
TRUSTEE FOR WELLS FARGO ASSET SECURITIES
CORPORATION, MORTGAGE PASS-THROUGH
CERTIFICATES SERIES 2006-AR16
Respondents
On Petition for a Writ of Certiorari
To the Supreme Court of the State of Washington
APPENDIXIN SUPPORT OFPETITION FOR WRIT OF
CERTIORARI
LINDA AMES
11920 NW 35TH AVENUE
VANCOUVER WA 98685
TEL: (360) 931-1797
LINDALOUAMES@COMCAST.NET
Petitioner

pg-30

APPENDIX 1 - WASHINGTON SUPREME COURT ORDER
APPENDIX 2 - COURT OF APPEALS STATE OF
WASHINGTON DIVISION TWO ORDER
APPENDIX 3 - COURT OF APPEALS STATE OF
WASHINGTON ORDER

APPENDIX 4 - COURT OF APPEALS OPINION
APPENDIX 5 - SUPERIOR COURT OF STATE OF
WASHINGTON, COUNTY OF CLARK
APPENDIX 6 - SUPERIOR COURT OF STATE OF
WASHINGTON, COUNTY OF CLARK
APPENDIX 7 - SUPERIOR COURT OF STATE OF
WASHINGTON, COUNTY OF CLARK
Respectfully submitted this

day of
*7^

LINDA AMES
11920 NW35TH
AVENUE
VANCOUVER WA
98685
TEL: (360) 931-1797

Pg- 31

APPENDIX 1 - WASHINGTON SUPREME COURT ORDER

pg.32

FILED
SUPREME COURT
STATE OF WASHINGTON
4/29/2020
BY SUSAN L. CARLSON
CLERK

THE SUPREME COURT OF WASHINGTON
LINDA AMES,
Petitioner,
v.
HSBC BANK USA, NATIONAL
ASSOCIATION,
Respondent.

)
)
)
)
)
)
)
)
)
)
)
)
)

No. 98110-8
ORDER
Court of Appeals
No. 51941-1-D

Department II of the Court, composed of Chief Justice Stephens and Justices Madsen,
Gonzalez, Yu, and Whitener, considered at its April 28,2020, Motion Calendar whether review
should be granted pursuant to RAP 13.4(b) and unanimously agreed that the following order be
entered.
IT IS ORDERED:
That the petition for review is denied.
DATED at Olympia, Washington, this 29th day of April, 2020.
For the Court

CHIEF JUSTICE

APPENDIX 2 - COURT OF APPEALS STATE OF WASHINGTON
DIVISION TWO ORDER

pg-33

Filed
Washington State
Court of Appeals

IN THE COURT OF APPEALS OF THE STATE OF WASffiti'SfdN
May 21,2020;

DIVISION II

LINDA AMES, an individual,

No. 51941-1-11

Appellant,
v.
HSBC BANK, USA, NATIONAL
ASSOCIATON as Trustee for WeQs
Fargo Asset Securities Corporation,
Mortgage pass-Through Certificates
Series 2006-AR-16,

RUUNG ON COSTS

Respondent

Respondent, HSBC Bank USA, requests $1,597.71 in costs for prevailing in a
November 9,2019 unpublished opinion. Linda Ames objected. This court informed her
that the objection was untimely. RAP 14.4(a). She requested the court to accept her
objection. This court will consider it. RAP 1.2(a).
Upon review of the opinion and the cost bill, this court concludes the cost bill
satisfies RAP 14.1, RAP 14.2, and RAP 14.3. Accordingly, it is hereby
ORDERED that Respondent HSBC is awarded $1,597.71 in costs against Ames.

Aurorav&xSearse
Court Commissioner
cc:

Linda Ames, Pro Se
Justin T. Jastrzebski
Robert A. Bailey

APPENDIX 3 - COURT OF APPEALS STATE OF WASHINGTON
ORDER

pg. 34

Filed
Washington State
Court of Appeals
Division Two
December 26,2019

IN THE COURT OF APPEALS OF THE STATE OF WASHINGTON
division n
LINDA AMES, an individual,

No. 51941-1-II

Appellant,
v.
HSBC BANK USA, NATIONAL
ASSOCIATION as Trustee for Wells Fargo
Asset Securities Corporation, Mortgage
Pass-Through Certificates Series 2Q06-AR16,

ORDER DENYING
MOTION FOR RECONSIDERATION

Respondent.
Appellant filed a motion for reconsideration of the unpublished opinion filed November
5,2019 in the above ratified matter. After consideration the Court denies appellant’s motion.
Accordingly, it is
SO ORDERED.
PANEL: Jj. Worswick, Melnick, Cruser
FOR THE COURT:

PRESIDING

f

APPENDIX 4 - COURT OF APPEALS OPINION

pg.35

Filed
Washington State
Court of Appeals
Division Two
November 5, 2019

IN THE COURT OF APPEALS OF THE STATE OF WASHINGTON
DIVISION H
LINDA AMES, an individual,

No. 51941-1-II

Appellant,
v.
HSBC BANK USA, NATIONAL
ASSOCIATION as Trustee for Wells Fargo
Asset Securities Corporation, Mortgage
Pass-Through Certificates Series 2006-AR16,

UNPUBLISHED OPINION

Respondent.
Worswick, J. — This is the third lawsuit arising from a foreclosure of Linda Ames’s real
property. In this case, Ames filed a lawsuit against HSBC Bank USA, National Association as
Trustee for Wells Fargo Asset Securities Corporation, Mortgage Pass-Through Certificates
Series 2006-AR161 (HSBC) alleging (1) quiet title, (2) wrongful foreclosure, (3) conversion, (4)
fraud, (5) misrepresentation, and (6) civil conspiracy. Ames also sought declaratory relief from
the summary judgment that was granted in her first lawsuit. The trial court granted HSBC’s
motion for summary judgment dismissal.

i

HSBC Bank USA, National Association as Trustee for Wells Fargo Asset Securities
Corporation, Mortgage Pass-Through Certificates Series 2006-AR16 is a securitized trust.

No. 51941-1-H
Ames argues that the trial court made erroneous discovery rulings and erred by granting
summary judgment and denying her motion to amend ho* complaint2
HSBC argues that Ames waived her claims of quiet title, wrongful foreclosure,
conversion, and civil conspiracy by not objecting to the foreclosure sale.3 HSBC also argues that
the “Deeds of Trust Act” (DTA), chapter 61.24 RCW, statute of limitations bars Ames’s fraud
and misrepresentation claims and that the DTA does not authorize declaratory relief.
We hold that Ames waived her quiet title, wrongful foreclosure, conversion, and civil
conspiracy causes of actions when she foiled to enjoin tire foreclosure sale. Further, we hold that
Ames’s fraud and misrepresentations claims are barred by the DTA statute of limitations and
Ames’s declaratory relief is not statutorily authorized. Accordingly, we affirm.
FACTS
In 2006, Ames borrowed $590,000 from Sima Pacific Mortgage Company Inc. A
promissory note memorialized this loan. To secure the loan, Ames executed a deed of trust in
favor of Mortgage Electronic Registration Systems Inc. (MERS), as nominee for beneficiary
Sierra Pacific, its successors and assignees. This deed of trust was recorded against Ames’s real
property.

2 Ames also argues in reply that the trial court erred by denying her motion for default. Because
Ames did not assign error to the trial court’s order and because Ames failed to provide this court
with any argument or legal authority related to this order, we do not consider this argument
Cowiche Canyon Conservancy v. Bosley, 118 Wn.2d 801,809,828 P.2d 549 (1992); RAP
10.3(aX4M5).
3 HSBC also argues that Ames’s quiet tide, wrongful foreclosure, conversion, and civil
conspiracy claims are barred by res judicata and collateral estoppel. Because we hold that Ames
waived these claims, we do not reach HSBC’s arguments.
2

No. 51941-1-II
This loan was sold to HSBC. HSBC was the note holder and assignee of the deed of
trust’s beneficial interest, while Wells Fargo Bank N.A. serviced the loan and was HSBC’s
attorney-in-fact
Ames ceased making her monthly loan payments in 2011. In 2012, HSBC appointed
Quality Loan Service Corporation of Washington (QLS) as successor foreclosure trustee on the
deed of trust that secured die defaulted loan. Wells Fargo, as HSBC’s loan servicer and attorneyin-fact, executed die successor trustee appointment and recorded the appointment
In September 2012, HSBC commenced nonjudicial foreclosure by issuing Ames a notice
of default. Wells Fargo alerted Ames that she could reinstate die note and deed of trust, and
instructed her how to do so. Ames did not elect to reinstate. QLS recorded a notice of trustee
sale for the sale scheduled on August 9,2013.
I. Ames’s First and Second Lawsuits
Four days before the scheduled sale, Ames filed her first lawsuit against HSBC, Wells
Fargo, MERS, Sierra Pacific, Clark County Title, and QLS. In addition to claims of slander of
title, quiet tide, fraud, and violation of Washington’s Consumer Protection Act,4 Ames’s
complaint also sought to enjoin the sale of die property. However, Ames took no further action
to restrain die trustee’s sale or obtain an injunction preventing the sale.
The sale eventually occurred on November 22,2013 at the Public Service Center Gazebo
in Vancouver, Washington. HSBC took ownership based on its credit bid. QLS issued a
trustee’s deed conveying die property to HSBC.

4 Chapter 19.86 RCW.
3

No. 51941-1-II
In 2014, HSBC filed an unlawful detainer action, seeking a writ of restitution against
Ames. In Ames’s answer to HSBC’s unlawful detainer action, she asserted that HSBC failed to
follow the DTA, wrongfully foreclosed, lacked standing to seize Ames’s property, and that the
deed should be declared void for fraud. The trial court granted HSBC’s writ of restitution
without a trial. Ames appealed.
In 2015, this court, through its commissioner, granted HSBC’s motion on the merits.
This court concluded that Ames had waived her opportunity to invalidate the sale or the trustee’s
deed. A few months later, the trial court in Ames’s first lawsuit granted QLS’s motion for
summary judgment dismissal. Eventually, Ames voluntarily dismissed this first case against all
the defendants.
IL Ames’s Third—and Current—Lawsuit
A.

Ames’s Complaint
Ames filed her current lawsuit against HSBC on November 24,2015. Her complaint

alleged seven causes of action: (1) quiet title, (2) wrongful foreclosure, (3) conversion, (4) fraud,
(5) misrepresentation, (6) civil conspiracy, and (7) declaratory relief from the summary judgment
that was granted in her first lawsuit Ames sought monetary damages to compensate for the
value of tiie property and other alleged harms.
In support of her quiet title claim, Ames alleged that the deed and the sale were illegal.
Ames sought that the sale be voided and that title be vested in her alone.
Regarding wrongful foreclosure, Ames alleged that there were irregularities with the sale.
Ames sought monetary damages and for the trial court to set aside and vacate the sale.

4

No. 51941-1-II
Regarding conversion, Ames alleged that the property’s title was fraudulently transferred,
and she sought monetary damages and for the trial court to vacate the sale.
In support of her fraud and misrepresentation claims, Ames alleged that HSBC falsely
stated that it could sell die property after the sale had been cancelled and that it was the bona fide
purchaser for value. Ames sought monetary damages and for the trial court to set aside and
vacate the sale.
Regarding civil conspiracy, Ames alleged that Wells Fargo, HSBC, Sierra Pacific, LSI
Title Agency, and QLS conspired to commit criminal and civil acts, namely assigning a
fraudulent interest, and recording that interest. Ames sought monetary damages and for the trial
court to set aside and vacate the sale.
Regarding declaratory relief vacating the summary judgment determination from her first
lawsuit, Ames alleged that die purported fraudulent assignment and false statements required an
award of monetary damages and for the trial court to set aside and vacate the summary judgment
dismissal of her claims from her first case.
Accordingly, Ames’s prayer for relief sought to void the deed of trust, quiet title in her
name, declare any notes invalid, declare that HSBC committed fraud and did not lawfully hold
the property, vacate the summary judgment order from the first case, and award Ames monetary
damages.
B.

Ames’s Motionsfar Default
In February 2016, Ames filed her first motion for default. HSBC filed a notice of

appearance and requested leave to respond to her complaint. The trial court denied Ames’s
motion for default

5

No- 51941-1-D
Ames filed a second motion for default on June 6,2016, noting a motion for July 15. On
July 11, HSBC filed its answer and affirmative defenses. The trial court denied Ames’s second
motion for default because HSBC had filed its answer.
C.

Summary Judgment
In October 2017, HSBC moved for summary judgment dismissal of all claims.

Approximately two months after the hearing on HSBC’s motion for summary judgment, but
before the trial court issued its ruling, Ames moved to amend her complaint to add Wells Fargo
as a party. HSBC opposed Ames’s motion.
In February 2018, the trial court issued its ruling granting HSBC’s motion for summary
judgment dismissal. In a letter accompanying its order granting summary judgment, the trial
court evidently denied Ames’s motion to amend by striking that hearing from the calendar.
Ames appeals.
ANALYSIS
I. Waiver
HSBC argues that Ames waived her causes of action of quiet title, wrongful foreclosure,
conversion, and civil conspiracy when she failed to enjoin the foreclosure sale of her property.
We agree.
In a nonjudicial foreclosure, the grantor of the deed oftrust may bring an action to
restrain the trustee’s sale “on any proper legal or equitable ground.” RCW 61.24.130(1).
However, a grantor’s failure to pursue presale remedies under the DTA may result in a waiver of
her right to object to the trustee’s sale. Former RCW 61.24.040(1)(f)(IX) (2012). Waiver may
occur when die grantor “‘(1) received notice of the right to enjoin the sale, (2) had actual or

6

No. 51941-1-D
constructive knowledge of a defense to foreclosure prior to die sale, and (3) failed to bring an
action to obtain a court order enjoining die sale.’” Frizzell v. Murray, 179 Wn.2d 301,306-07,
313 P.3d 1171 (2013) (quoting Plein v. Lackey, 149 Wn.2d 214,227,67 P.3d 1061 (2003)). A
grantor may waive defenses to the sale even if she attempts to obtain an injunction but is unable
to satisfy the payment condition. Frizzell, 179 Wn.2d at 308. When a grantor waives her right to
object to the sale, the grantor also waives most claims for damages resulting from the sale.
Patrick v. Wells Fargo Bank, NA, 196 Wn. App. 398,406-07,385 P.3d 165 (2016).
However, such waiver does not apply to all potential claims. Under ROW 61.24.127(1),
the failure to enjoin a foreclosure sale may not be deemed a waiver of four specific types of
actions for damages. These actions are (1) common law fraud or misrepresentation, (2) a
violation of Title 19 RCW, (3) failure of the trustee to materially comply with the DTA, or (4) a
violation of tire statute mandating notice to a senior beneficiary. RCW 61.24.127(1 )(a)-(d).
Nevertheless, actions for damages other than the claims stated in RCW 61.24.127(1) are not
authorized. Patrick, 1% Wri. App. at 406-07.
Here, Ames’s complaint alleged four causes of action objecting to the sale: quiet title,
wrongful foreclosure, conversion, and civil conspiracy. These claims all attempt to challenge the
legality of the foreclosure sale. Ames filed her first suit four days before the scheduled sale in an
effort to prevent the sale from going through. However, Ames failed to enjoin die foreclosure
sale. Ames received notice of her right to enjoin the foreclosure sale, attempted to defend
against die foreclosure, and failed to obtain a court order enjoining the sale. As a result, all three
elements of waiver are met, and these claims are waived.

7

No. 51941-1-D
HI. Post-Foreclosure Sale DTA Claims
HSBC argues that Ames’s remaining claims of fraud and misrepresentation are barred by
the statute of limitations and that her claim for declaratory relief from summary judgment in her
first case is not statutorily authorized. We agree.
RCW 61.24.127(1) creates four specific types of actions for damages available after a
foreclosure sale occurs. A plaintiff can bring claims asserting (1) common law fraud or
misrepresentation, (2) a violation of Title 19 RCW, (3) failure of the trustee to materially comply
with the DTA, or (4) a violation of the statute mandating notice to a senior beneficiary.
However, these claims are subject to limitations. Relevant here, the nonwaived claims “must be
asserted or brought within two years from the date of the foreclosure sale or within the applicable
statute of limitations for such claim, whichever expires earlier.” RCW 61.24.127(2)(a).
Ames’s claims for fraud and misrepresentation are subject to the two year statute of
limitation. RCW 61.24.127. Because the foreclosure sale occurred on November 22,2013.
Ames’s DTA claims expired'on November 22,2015. However, because November 22,2015
was a Sunday, Ames was allowed to file her complaint the following day. RCW 1.12.040.
However, Ames did not file her complaint until November 24,2015, one day too late. As a
result, we hold that Ames’s claims for fraud and misrepresentation are barred by the DTA statute
of limitations.
Additionally, Ames’s final claim for declaratory relief vacating the summary judgment
determination from her first lawsuit is not statutorily authorized. Declaratory relief from another
suit is not one of RCW 61.24-127(1)’s four specific types of actions for damages. Because Ames
has no basis to bring this claim, we hold that Ames did not properly bring this cause of action.

8

No. 51941-1-II
Accordingly, we hold that all seven of Ames’s claims are waived, barred by the statute of
limitations, or not statutorily authorized. As a result, we affirm the trial court’s order granting
summary judgment dismissal in favor of HSBC.
IV. Motion To Amend
Finally, Ames argues that the trial court erred when it denied ho* motion to amend her
complaint to add Wells Fargo as a party. Specifically, Ames argues Wells Fargo was “really the
party on whose behalf the trust was operating” and there would not have been undue delay or
prejudice by adding Wells Fargo to the complaint Br. of Appellant at 21. We hold that the trial
court did not abuse its discretion when denying Ames’s motion to amend.
A party may amend its pleading by leave of court or written consent of the opposing
party. CR 15(a). Leave to amend shall be freely given when justice requires. CR 15(a). We
review a trial court’s determination to deny a motion to amend for an abuse of discretion. Ensley
v. Mollman, 155 Wn. App. 744,759,230 P.3d 599 (2010).
The touchstone of a denial of a motion to amend is the prejudice caused to the
nonmoving party by the amendment Karlberg v. Otten, 167 Wn. App. 522, 529,280 P.3d 1123
(2012). To determine prejudice, courts consider potential delay, unfair surprise, or the
introduction of remote issues. Karlberg, 167 Wn. App. at 529. If a motion to amend is made
after an adverse granting of summary judgment, the course of proceedings is disrupted and the
trial court should consider whether the motion could have been timely made earlier in the
litigation. Ensley, 155 Wn. App. at 759. Trial court may consider the timeliness of the motion
as well as the probable merit or futility of the amendments requested. Doyle v. Planned
Parenthood ofSeattle-King County. Inc., 31 Wn. App. 126,131,639 P.2d 240 (1982).

9

No. 51941-1-II
More than two years after she filed her original complaint, Ames filed a motion to amend
her complaint to add Wells Fargo as a party. Ames brought this motion to amend in January
2018. This occurred two months after die parties’ hearing on HSBC’s motion for summary
judgment, but before the trial court rendered its decision on the motion. In a letter accompanying
the order granting HSBC’s motion for summary judgment, the trial court stated that, with the
entry of summary judgment, it struck the hearing Ames scheduled regarding the amended
complaint. Given the delay in moving to amend, the eventual grant of adverse summary
judgment, and die futility of the amendment because of Ames’s waiver, statute of limitations bar,
and lack of authority for seeking declaratory relief, we hold that the trial court did not abuse its
discretion in denying Ames’s motion to amend.
We affirm.
A majority of the panel having determined that this opinion will not be printed in the
Washington Appellate Reports, but will be filed for public record in accordance with RCW
2.06.040, it is so ordered.

*

We concur:

AJLjJL
Melnick, J.

Cruser, J.

J

t
-•

10

/

APPENDIX 5 - SUPERIOR COURT OF STATE OF WASHINGTON,
COUNTY OF CLARK

I

pg. 36

f*

FILED^X
1

FEB 1 1 2020

2

aoott©. Weber, Clerk. Clark Oo

3
4
5
6
7
8
IN THE SUPERIOR COURT OF THE STATE OF WASHINGTON
IN AND FOR THE COUNTY OF CLARK

9
10
11
12

LINDA AMES,
Plaintiff,

13
14
15
16
17
18

v.
HSBC BANK USA, NATIONAL
ASSOCIATION AS TRUSTEE FOR WELLS
FARGO ASSET SECURITIES
CORPORATION, MORTGAGE PASSTRHOUGH CERTIFICATES SERIES 2006AR16,

21

ORDER DENYING PLAINTIFF’S
MOTION TO VACATE, ALTER OR
AMEND FINAL JUDGMENT BASED
ON NEWLY DISCOVERED
EVIDENCE

Defendants.

19
20

No. 15-2-03226-1

This matter having come before the court on Plaintiff’s Motion to Vacate, Alter or
Amend Final Judgment Based on Newly Discovered Evidence, the court having heard the

22
argument of the parties, reviewed all relevant pleadings, and being otherwise folly informed in
23
24

these premises,

ORDER DENYING PLAINTIFF’S MOTION TO
VACATE, ALTER OR AMEND FINAL
JUDGMENT BASED ON NEWLY DISCOVERED
EVIDENCE - PAGE 1

149
LYT

f

1
2

It is hereby ORDERED, ADJUDGED and DECREED as follows:

3

The Plaintiffs Motion to Vacate, Alter or Amend Final Judgment Based on Newly

4

Discovered Evidence is DENIED. The Plaintiff has a Petition for Review pending with the

5

Washington State Supreme Court and a Mandate has yet to be issued.

6

DATED this 1

tv ofjFebriiary, 2020

7
8

9

7U
TJerek J. Varicferwojbd
Clark Comity Superior Court

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
ORDER DENYING PLAINTIFF’S MOTION TO
VACATE, ALTER OR AMEND FINAL
JUDGMENT BASED ON NEWLY DISCOVERED
EVIDENCE - PAGE 2

APPENDIX 6 - SUPERIOR COURT OF STATE OF WASHINGTON,
COUNTY OF CLARK

pg. 37

l

I

2818FEB -6 PH 12= 16
SCOTT G.WEBER.CLERK
CLARK COUNTY

IN THE SUPERIOR COURT OF THE STATE OF WASHINGTON
IN AND FOR THE COUNTY OF CLARK

LINDA AMES,

No. 15-2-03226-1
Plaintiff

v.

HSBC BANK USA, NATIONAL
ASSOCIATION AS TRUSTEE FOR WELLS
FARGO ASSET SECURITIES
CORPORATION, MORTGAGE PASSTRHOUGH CERTIFICATES SERIES 2006AR16,

ORDER GRANTING DEFENDANT’S
MOTION FOR SUMMARY
JUDGMENT

Defendants.
This matter having come before the court on Defendant’s Motion for Summary
Judgment, die court having heard the argument of die parties, having been fully informed in
these premises, and having reviewed die following pleadings:
Defendant’s Motion for Summary Judgment filed on October 5,2017;

ORDER GRANTING DEFENDANT’S MOTION
FOR SUMARY JUDGMENT - PAGE 1

114
KRW

1

Declaration of David Spellman in Support of Defendant’s Motion for Summary
Judgment filed on October 5,2017;

2
3
4
5
6
7
8
9
10
11

Declaration of Brandon McNeal in Support of Defendant’s Motion for Summary
Judgment filed on October 5,2017;
Declaration of Aaron Crowe in Support of Defendant’s Motion for Summary Judgment
filed on October 5,2017;
Declaration of Gwen Wall in Support of Defendant’s Motion for Summary Judgment
filed on October 5,2017;
Plaintiff’s Opposition to Defendant’s Motion for Summary Judgment filed on November
9,2017;
Declaration of Linda Ames in Support of Plaintiff’s Opposition to Defendant’s Motion
for Summary Judgment filed on November 9,2017;
Plaintiff’s Objection to Hearsay Declaration of David Spellman filed on November 9,
2017;

12
13

Plaintiff’s Objection to Hearsay Declaration of Brandon McNeal filed on November 9,
2017;
Plaintiff’s Objection to Hearsay Declaration of Aaron Crowe filed on November 9,2017;

14
15
16
17
18

Plaintiff’s Objection to Hearsay Declaration of Gwen Wall filed on November 9, 2017;
and
HSBC’s Reply in Support of Summary Judgment filed on November 16,2017.
It is hereby ORDERED, ADJUDGED and DECREED as follows:

19

1. The Defendant’s Motion for Summary Judgment is GRANTED.

20

2. The claims asserted by the Plaintiffs against Defendant HSBC Bank are DISMISSED

21
22
23
24

with prejudice.
DATED this

pi Febiaary, 2018

i
-BCfek J. Vamferwood
Clark County Superior Court
ORDER GRANTING DEFENDANT’S MOTION
FOR SUMARY JUDGMENT - PAGE 2

APPENDIX 7 - SUPERIOR COURT OF STATE OF WASHINGTON,
COUNTY OF CLARK

pg-38

FILED
2

2018 FIB-6 PM 12* 16

3

SCOTT G. WEBER. CLERK
CLARK COUNTY

4
5
6

7
N.

8

IN THE SUPERIOR COURT OF THE STATE OF WASHINGTON
IN AND FOR THE COUNTY OF CLARK

9
10
11
12

LINDA AMES,
Plaintiff,

13
14
15
16
17
18
19

20
21

No. 15-2-03226-1
ORDER DENYING PLAINTIFFS
SIXTH MOTION TO COMPEL

v.
HSBC BANK USA, NATIONAL
ASSOCIATION AS TRUSTEE FOR WELLS
FARGO ASSET SECURITIES
CORPORATION, MORTGAGE PASSTRHOUGH CERTIFICATES SERIES 2006AR16,
Defendant

This matter having come before the court on Plaintiff s Sixth Motion to Compel, the
court having heard the argument of the parties, having been hilly informed in these premises,

22
having reviewed the relevant pleadings, and being otherwise fully advised,

23
24

ORDER DENYING PLAINTIFF’S SIXTH
MOTION TO COMPEL - PAGE 1

115
KRW

1

It is hereby ORDERED, ADJUDGED and DECREED as follows:

2

The Plaintiffs Sixth Motion to Compel is DENIED. Although the Plaintiff disputes the

3

validity and/or accuracy of the Defendant’s discovery responses, it appears that the Defendant

4

has adequately responded to the Plaintiff s discovery requests.

5

DATED this 5th day of Febi

6

1

7

8
^—

^JierelcX Vanderwpod I
Clark County Superior Court

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

ORDER DENYING PLAINTIFF’S SIXTH
MOTION TO COMPEL - PAGE 2

No.
IN THE
Supreme Court of the United States
LINDA AMES
Petitioner
v.
HSBC BANK USA, NATIONAL ASSOCIATION AS TRUSTEE FOR
WELLS FARGO ASSET SECURITIES CORPORATION, MORTGAGE
PASS-THROUGH CERTIFICATES SERIES 2006-AR16
Respondents
On Petition for a Writ of Certiorari
To the Supreme Court of the State of Washington
EXHIBITS IN SUPPORT OF PETITION FOR WRIT OF CERTIORARI
LINDA AMES
11920 NW 35TH AVENUE
VANCOUVER WA 98685
TEL: (360) 931-1797
LINDALOUAMES@COMCAST.NET
Petitioner

pg.39

EXHIBIT 1 - WELLS LOG ADMITTING TO TELLING
APPELLANT TO STOP MAKING HER PAYMENTS
Respectfully submitted this 2^

day of

LINDA AMES
11920 NW 35TH
AVENUE
VANCOUVER WA
98685
TEL: (360) 931-1797

pg. 40

EXHIBIT 1 - WELLS LOG ADMITTING TO TELLING APPELLANT TO
STOP MAKING HER PAYMENTS

Pg* 41

(3 ^ r

FOR PROCESS NOTES

FOR2 0152750717
LM AMES

L:R F:A B:

R:

11:55:07
M:F F:3

ARM

09/01/11 TYPE CONV. RES.

10810 NW 13TH PLACE VANCOUVER WA 98685-5100

GUAR

* PROCESS NOTES *

05/03/12
05/03/12

08/25/13

EMK Z41/001

17:47:39 7AQ

IBC FROM B1 ADVSD IN FCL STATUS
EST TAD IAO 33,605.23
RFD: LOSS OF INCOME
NO FCL SALE DATE
TRYING TO GET IN CONTACT W HPS
RETURNING CALL FROM HPS
RECAPPED
ADVSD COLLECTION EFFRTS CAN CONTINUE

05/01/12

13:45:36 FH7

RENTED OUT APT ATTACHED TO PROP $750.00 MNTH*
*************************************************

05/01/12

13:43:42 FH7

ADVD OF CNSQSC__ CONFIRMED SPOC:
DAVID SCHOL
(877) 458-8420 EXT38221

05/01/12

13:42:45 FH7

RFD:LOSS OF JOB,MET HUSB WHCH MARRIES, HUSB STRES
SED DUE TO HIGH MORTG PYMT. STOP MKNG PYMT TO GO T
HRU MOD PROCESS, HUSB MVD OUT FOR 5 MNTHS WHCH IS
NOW BCK..BRW CURRENTLY SELF EMPLYD-DECORATING BUSN
STARTED ONE MNTH AGO. HUSB IS ALSO SELF EMPYD- CON
TRACTOR-REMOLDING... CONFIRMED RECVD FAX ON 4/30

HSBC 000543

1

CERTIFICATE OF TYPE SIZE AND STYLE

2
3

This brief is typed in a proportionally spaced typeface using
Century 14 Point Font.

4

5
6

7
8
9

^4-44

'EfNDAAMES
11920 NW 35TH AVENUE
VANCOUVER WA 98686
TEL: (360) 931-1797

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
PLAINTIFF’S OBJECTION TO REPORT AND RECOMMENDATION BY MAGISTRATE - 57

